V

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402)342-2831
Fax: (402) 342-4850

Web Site
www. cocklel egalbri efs. com

No.
GUADALUPE A. WELSH,
Petitioner,
v.
FORT BEND INDEPENDENT SCHOOL DISTRICT,
Respondent.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1 (h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 6659 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 10th day of March, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska
RENEE J. GOSS
My Comm. Exp. September 5,2023
Notary Public

Affiant

39534

